IN THE
SUPREME COURT OF THE UNITED STATES
NO. 21-144
Seattle’s Union Gospel Mission,
Petitioner,
v.
Matthew S. Woods,
Respondent.
CERTIFICATE OF COMPLIANCE WITH RULE
33.1(g)
I, Kristine L. Brown, counsel of record for Westminster
Theological Seminary, hereby certify that, according to
the word-count tool in Microsoft Word, the Brief of
Westminster Theological Seminary as Amicus Curiae in
Support of Petitioner consists of 3,302 words, including
footnotes and excluding the sections enumerated by Rule
33. l(d). The Brief therefore complies with Rule 33. l(g)
s/ Kristine L. Brown
KRISTINE L. BROWN
Counsel of Record
8700 E Jefferson Ave # 371703
Denver, CO 80237
(302) 515-2721
kristi@kristiburtonbrown.com
August 31, 2021

